PROOF OF SERVICE
I hereby certify that on this 14th day of September 2020, a true and correct copy
of Brief of Amici Curiae Scientists, Technicians, and Scholars in Support of Petitioner
was served via electronic mail upon:
Stephen Hoffman
Garrett Greene
Assistant Attorney General
Office of the Attorney General of Texas
Criminal Appeals Division
P.O. Box 12548, Capitol Station
Austin, TX 78711
(512) 936-6388
Stephen.Hoffman@oag.texas.gov
Garrett.Greene@oag.texas.gov
Attorneys for Respondent, The State of Texas
Respectfully submitted,
Daniel Scardino*
Gretchen Scardino
*Counsel of Record
SCARDINO LLP
501 Congress Avenue,
Suite 150
Austin, Texas 78701
(512) 443-1667
daniel@scardinollp.com
September 14, 2020

